HHS/OIG, Audit - "Audit of Unobligated Balances of Funds Awarded Under
the Bioterrorism Hospital Preparedness Program," (A-05-06-00024)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Unobligated Balances of Funds Awarded Under
the Bioterrorism Hospital Preparedness Program," (A-05-06-00024)
June 12, 2007
Complete
Text of Report is available in PDF format (353 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine whether the percentage
of unobligated Bioterrorism Hospital Preparedness Program (Bioterrorism Program)
balances decreased from program year 2002 to program year 2004.
The percentage of unobligated Bioterrorism Program balances
decreased from program year 2002 to program year 2004.  Based on OIGs analysis
of available financial status reports submitted by awardees, unobligated
balances declined from 15.7 percent of the awarded funds for program year 2002
to 5.1 percent of the awarded funds for program year 2004.  Because program year
2004 had not expired for six grantees as of the completion of the audit (January
9, 2007), these grantees could further reduce their unobligated balances.  The
Health Resources and Services Administration (HRSA) has contributed to the
reduced percentage of unobligated balances by strengthening its oversight,
training, and onsite monitoring of awardees and by using available enforcement
actions.
OIG recommended
that HRSA continue to use available monitoring tools and enforcement actions to
reduce unobligated funds until such time as the Assistant Secretary for
Preparedness and Response assumes responsibility for the Bioterrorism Program.
HRSA concurred with the recommendation.